U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 25, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

United States v. Michael J.D. Briggs, No. 19-108
United States v. Richard D. Collins, No. 19-184

Dear Mr. Harris:
The Court granted the petitions for writs of certiorari in these cases on November 15, 2019.
Petitioner's opening brief on the merits is currently due December 30, 2019.
In order to accommodate scheduling difficulties and the press of other cases, petitioner
respectfully requests, under Rule 30.4 of the Rules of this Court, an extension to and including
January 6, 2020, within which to file the opening brief and joint appendix. Counsel for respondents
consent to that request and, because of similar concerns, seek an extension of time for the filing of
respondents' briefs to and including February 12, 2020. Petitioner consents to that request.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0108
USA
MICHAEL J.D. BRIGGS

MAJ. JOHNATHAN LEGG
FAIRCHILD HALL
ROOM 6H-194
US AIR FORCE ACADEMY, CO 80840
JOHNATHAN.LEGG@USAFA.EDU
STEVEN I. VLADECK
727 EAST DEAN KEETON STREET
AUSTiN , TX 78705
SVLADECK@LAW.UTEXAS.EDU
TERRI ZIMMERMAN
7705. POST OAK LANE
SUITE 620
HOUSTON, TX 77056
TERRI.ZIMMERMAN@ZLZSLAW.COM

19-0 184
USA
RICHARD D. COLLINS AND HUMPHREY DANIELS,
III

WILLIAM E. CASSARA
P.O. BOX 2688
EVANS, GA 30809
706-860-5769
BILL@WILLIAMCASSARA.COM
PETER COOTE
PENNONI
1900 MARKET STREET
SUITE 300
PHILADELPHIA, PA 19103
215-222-3000
PCOOTE@PENNONI.COM
TAMI L. MITCHELL
CIVILIAN APPELLATE DEFENSE COUNSEL
LAW OFFICE OF DAVID P. SHELDON, PLLC
5390 GOODWIEW DRIVE
COLORADO SPRINGS, CA 80911
719-426-8967
TAMIMITCHELL@MILITARYDEFENSE.COM
MARK J. SCHWARTZ
MAJOR, USAF
APPELLATE DEFENSE COUNSEL
AIRFORCE APPELLATE DEFENSIVE DIVISION
1500 W. PERIMETER ROAD, SUITE 1100
JOINT BASE ANDREWS, MD 20762
240-612-4470
MARK.J. SCHWARTZ7.MIL@MAIL.MIL

DAVID P. SHELDON
LAW OFFICES OF DAVID P. SHELDON, PLLC
100 M STREET, SE
SUITE 600
WASHINGTON, DC 20003
202-546-9575
DAVIDSHELDON@MILITARYDEFENSE.COM
STEPHEN I. VLADECK
727 EAST DEAN KEETON ST.
AUSTIN, TX 78705
512-475-9198
SVLADECK@LAW.UTEXAS.EDU

